                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

 Case Number: 1-12020013                                                                     Page 1 of1



         In February 2012 the National Science Foundation's Office of Budget, Finance and Award
         Management received a call from a grocery store chain1 in Pennsylvania stating it had unsuccessfully
         attempted to deposit two checks2 issued by NSF. These checks were cashed at two different stores 3
         on two separate dates4 by the payee named on the checks. 5 Both checks appeared to be drawn on an
         account with a global bank company, 6 but were returned by the bank because no such account
         existed. Due to the appearance of the checks, the store believed these checks were authentic and did
         not question the person cashing the checks. The grocery store contacted NSF to address this issue.

         Upon review of this matter, NSF concluded that NSF does possess an account with the bank, the
         individual who cashed the checks is not an NSF employee, and the checks cashed were fraudulent.
         The NSF Office oflnspector General was contacted to investigate this matter. In the course of their
         investigation, NSF OIG referred the case to a federal agency7 with extensive experience dealing with
         check fraud. Although the agency declined the case, it referred NSF OIG to State Officials 8 who are
         members of the Federal Crimes Task Force, to assist in the matter. NSF OIG collaborated with Task
         Force which led to the apprehension and conviction of the individual who cashed the fraudulent
         checks. The individual pled guilty to multiple state charges and in tum, received 18 months of
         probation through the State ofPennsylvania's Accelerated Rehabilitative Disposition Program9 and
         was ordered to pay restitution. 10

         Accordingly, this case is closed.




         1-
         2
         3
         4
             One was $964.14 the other was

             1/27/2012 & 1/28/2012
                                              72.59


         5
         6
         7
             United States Secret Service (USSS)
         8

         9
             Sentencing occurred on 06/13/2013
         10
              $1,936.73




NSF OIG Form 2 (11/02)
